No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
SCOTT TRADER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Scott Trader through undersigned counsel and pursuant to SUP. CT.
R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in
the above-styled matter was placed in an envelope via third party commercial carrier
for delivery within three days, addressed to the Clerk of the Supreme Court of the
United States, on the 6th day of August, 2021, which is timely pursuant to the rules
of the Court.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
August 6, 2021

By:

_s/ Bernardo Lopez__________________
Bernardo Lopez
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

